OFFICE OF INSPECTOR GENERAL 

   for the Millennium Challenge Corporation




AUDIT OF THE MILLENNIUM
CHALLENGE CORPORATION’S
MANAGEMENT OF ITS
CONDITIONS PRECEDENT IN
ITS COMPACT AGREEMENTS
AUDIT REPORT NO. M-000-07-002-P
July 26, 2007




WASHINGTON, DC

Office of Inspector General
  for the
Millennium Challenge Corporation


July 26, 2007

The Honorable John J. Danilovich
Chief Executive Officer
Millennium Challenge Corporation
875 Fifteenth Street, NW
Washington, DC 20005


Dear Ambassador Danilovich:

This letter transmits the Office of the Inspector General’s final report on the Audit of the
Millennium Challenge Corporation’s Management of Its Conditions Precedent in Its Compact
Agreements. In finalizing the report, we considered your written comments on our draft report
and included those comments in their entirety in Appendix II of this report.

The report contains three audit recommendations for corrective action. Based on your response
to our draft report, we consider that a management decision has been reached on the
recommendations. Final action for the recommendations must be determined by the MCC, and
we ask that we be notified of the MCC’s actions.

I appreciate the cooperation and courtesy extended to my staff during this audit.

Sincerely,


John M. Phee /s/
Assistant Inspector General
Millennium Challenge Corporation




U.S. Agency for International Development
1300 Pennsylvania Avenue, NW
Washington, DC 20523
www.usaid.gov
CONTENTS

Summary of Results ....................................................................................................... 1


Background ..................................................................................................................... 2


Audit Objective 


     Did the Millennium Challenge Corporation ensure that all 

     conditions precedent were successfully met and properly 

     implemented before the compact was entered into force 

     and initial disbursements and subsequent disbursements 

     were made to the compact country? ........................................................................... 3


Audit Findings ................................................................................................................. 4


     Process Used to Revise Conditions

     Precedent Should Be Formalized ............................................................................... 4


     Clearance Timeframes Could Be Better 

     Communicated ............................................................................................................ 6


     Additional Documentation Is Needed 

     to Justify Contracting Action........................................................................................ 7


Evaluation of Management Comments ....................................................................... 10


Appendix I – Scope and Methodology ........................................................................ 11


Appendix II – Management Comments ....................................................................... 13





                                                               00
SUMMARY OF RESULTS

The Assistant Inspector General for the Millennium Challenge Corporation (MCC)
conducted the Audit of the Millennium Challenge Corporation’s Management of Its
Conditions Precedent in Its Compact Agreements as part of its fiscal year 2007 audit
plan. The audit was conducted to determine whether MCC ensured that all required
conditions precedent (CPs) were met before compacts went into effect or disbursements
were made to compact countries (see page 3).

MCC requires that the compact country meet a series of CPs before a compact is
entered into force1 and before initial and subsequent funds are disbursed for compact
implementation. These CPs are established in conjunction with the compact country by
MCC’s legal and sector experts during compact negotiations and are outlined in the
compact and related disbursement agreements. The purpose of a CP is to ensure that
(1) the compact countries establish certain legal, budgetary, and program actions and
(2) the various programs being funded by MCC are implemented and carried out with
proper controls.

The audit found that MCC ensured that all CPs were successfully met and properly
implemented before the compact was entered into force and before the funding of initial
and subsequent disbursements (see page 4). However, the audit identified three areas
in which MCC could improve its CP process. Specifically, MCC needs to develop a more
formalized and consistent approach to guide compact countries in revising and reporting
on CPs (see page 4). Additionally, MCC’s clearance timeframes for approval of country
requests, which include the CP report, could be clarified (see page 6). The audit also
identified the need for additional documentation to justify a procurement action (see
page 7).

In its response to our draft report, the MCC agreed with the recommendations and
explained its plan for implementing the recommendations. Therefore, we consider that a
management decision had been reached on the recommendations (See page 10).

Management comments are included in their entirety in appendix II (see page 13).




1
  According to MCC officials, entry into force is the point at which a binding commitment is
recognized and the compact funds are obligated.


                                                                                          1
BACKGROUND

The Millennium Challenge Corporation (MCC) was established in January 2004 by the
Millennium Challenge Act of 2003 to provide assistance to eligible developing countries
that rule justly, invest in their people, and encourage economic freedom. This assistance
is provided through compact agreements2 between MCC acting as a U.S Government
agency and recipient country governments. As of April 2007, MCC had signed compacts
with 11 countries for approximately $2.9 billion.

After an eligible country and MCC formally sign a compact, the country must meet a
series of conditions precedent (CPs)3 established by MCC before the compact can enter
into force and before initial and subsequent funds can be disbursed for the compact
implementation and other related activities. The purpose of these CPs is to ensure that
(1) the eligible country’s compact and compact activities have met established MCC
requirements for implementation and (2) the compact activities will be implemented
properly. MCC is not obligated to disburse funding for compact activities if an eligible
country does not meet its CP requirements to MCC’s satisfaction.

CPs are primarily established in conjunction with the compact country by MCC’s legal
and sector experts during compact negotiations and are generally country and project
specific. Certain CPs must be met before the compact is entered into force, and a set of
conditions must be met before initial and subsequent disbursements. CPs established
for entry into force require the country to meet several criteria, including the following: (1)
establish an accountable entity, (2) develop systems for financial control and oversight,
(3) finalize postcompact legal documents, and (4) develop an approved disbursement
agreement. CPs related to initial and subsequent disbursements must satisfy, or ensure
the satisfaction of, all applicable CPs in the countries’ disbursement agreement.
Examples of these CPs include establishing a bank account, developing an interim
procurement plan approved by MCC, and developing an approved fiscal accountability
plan.

CPs are documented in the compact country’s compact and disbursement agreements.
CPs within the disbursement agreements may be modified annually by MCC and the
compact country.

MCC reserves the right to waive or defer CPs. For MCC to do this, the compact country
must make a formal request to MCC and include the reasons for the request and the
material impact, if any, the waiver may have on the compact activities.




2
  A compact is a multiyear agreement between MCC and an eligible country to fund specific
programs targeted at reducing poverty and stimulating economic growth.
3
  A conditions precedent is an act or event (other than a lapse of time) that, unless the condition
is excused, must occur before a duty to perform a promise in the agreement arises.


                                                                                                 2
AUDIT OBJECTIVE
The Assistant Inspector General for MCC conducted this audit as part of its fiscal year
2007 annual audit plan. The objective of this audit was to answer the following question:

   Did the Millennium Challenge Corporation ensure that all conditions precedent were
   successfully met and properly implemented before the compact was entered into
   force and initial disbursements and subsequent disbursements were made to the
   compact country?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       3
AUDIT FINDINGS

Overall, for the countries included in this review,4 the audit found that MCC ensured that
all CPs were successfully met and properly implemented before the compact entered
into force and before initial and subsequent disbursements were made to the compact
country.

Satisfactory completion of these actions is evidenced by MCC and the country executing
a number of documents specified in the compact, such as a governance agreement, a
fiscal agent agreement, and incumbency and specimen certificates from MCC and the
compact country. For the countries included in our review, the required documents were
completed and approved before the countries’ compacts entered into force and before
disbursements were made. In one country, a CP had not been completed or deferred.
The CP should have been completed or deferred by the third quarter ending June 2006;
however, the compact country had not requested that the CP be deferred because of an
oversight in its tracking. As this was the only case involving a CP that did not receive an
approval for a deferral when required, no recommendation is made.

The audit did identify areas within the CP process for which MCC could strengthen its
overall policies, procedures, and guidance. These areas include the process used for
revising and reporting of CPs and specifying clearance timeframes for approvals of
country requests. The audit also identified areas within the procurement process that
could be improved. One such area concerned the absence of adequate documentation
for procurement actions. The problem areas are discussed below.

Process Used to Revise
Conditions Precedent Should
Be Formalized
    Summary: MCC did not have a consistent and documented process for a compact
    country to properly revise and report on its CPs, because MCC was reviewing the CP
    process and had not yet developed written guidance. The current process used to
    revise and report on the CPs was a result of MCC incorporating lessons learned from
    prior compact countries. According to internal controls established by the General
    Accountability Office (GAO), for an entity to run and control its operations, it must have
    relevant, reliable, and timely communications. The internal controls also state that
    pertinent information should be identified, captured, and distributed in a form and
    timeframe that permits people to perform their duties efficiently. Until MCC formally
    establishes and provides relevant and consistent guidelines to its staff and compact
    countries on revising and reporting on CPs, the compact activities could be delayed or
    not implemented as required.

Although MCC had a process to establish the CPs in its country compacts and related
disbursement agreements, the audit identified various methods the compact countries
used in revising and reporting on the CPs.


4
    Armenia, Cape Verde, Georgia, Honduras, Madagascar, and Nicaragua.


                                                                                             4
First, initial CPs contained in the disbursement agreement were reflected on a CP
schedule that described the CP, along with a specific quarterly and yearly timeframe for
meeting the CP. Once a compact country started implementation of the compact
activities, both MCC and the compact country felt a need to revise the CP schedule for
various reasons, such as to adjust the timeframes for completion of the CPs. Compact
countries are required to conduct an annual evaluation of the CPs and work with their
counterpart in MCC to confirm the relevancy of the CP and the timeframes. During the
required annual review of CPs, the staff in Honduras removed the timeframes for
meeting CPs altogether and instead included a statement that, until the CP had been
met, MCC would not fund the specific project or activity. The staff in Georgia retained its
existing CP schedule format and worked with MCC sector counterparts to determine
which CPs were required within a specific quarter during the second year of the
compact. In Cape Verde, the staff revised its CPs for a particular project but had not
obtained MCC’s approval for the revisions and was unsure of the process to obtain
approval.

Second, some countries were informally moving program-specific CPs to the country’s
program work plans. For example, MCC staff in Nicaragua stated that MCC wanted to
reevaluate the CPs to ensure that they were still relevant and modify them as needed to
ensure that they were the right controls for ensuring that the compact achieved its
intended results. The staff also considered moving the less critical CPs into the work
plans. Likewise, in Cape Verde, the staff was working to include the activity-level CPs in
the work plan. Because of the high number of CPs, the staff was working to reduce and
modify these conditions by collapsing certain CPs into one or by changing the CP’s
requirements. In Honduras, the staff moved some program-type CPs (such as
developing a resettlement plan or moving telephone poles before road construction)
from the initial CP reporting document to the country’s work plan.

Third, countries differed in the way they requested deferrals for CPs that were required
during a specific quarter. Unlike Georgia, Honduras, and Nicaragua, which submit a
formal letter to request a CP deferral, Millennium Challenge Account–Cape Verde (MCA-
Cape Verde) did not submit a formal letter to request deferrals and only submitted its
request on the last column of its CP schedule. In the cases of Georgia, Honduras, and
Nicaragua, the country request letter contained a statement that, if MCC concurred with
the deferral request, then MCC was to sign the request letter and return it to the
respective country. When asked about how they received approvals from MCC, officials
at MCA-Cape Verde stated that they usually requested revised deferrals from their MCC
counterpart via phone or e-mail, but no documentation was available to show MCC’s
approval of the deferrals.

According to MCC officials, no guidance documents were in place on revising and
reporting CPs. An MCC official added that MCC’s senior management was aware of this
and had discussed the issue at a recent senior management offsite meeting. Currently,
MCC transaction teams are learning from one another and looking at the efforts put into
developing, revising, and reporting on CPs for newer countries to determine whether
these approaches will work for other countries. Another MCC official stated that the goal
of MCC is to unclutter the compact by categorizing CPs meant for the recipient country
and those geared toward the specific projects as outlined in the compact.

According to GAO standards for internal controls, to run and control its operations, an
entity must have relevant, reliable, and timely communications relating to internal as well


                                                                                         5
as external events. Information is needed throughout the agency to achieve all of its
objectives. GAO also states that pertinent information should be identified, captured, and
distributed in a form and timeframe that permits people to perform their duties efficiently.

CPs are internal controls set up to ensure the successful implementation of the compact
activities. Unless MCC formally establishes and provides guidelines to its staff and
personnel from compact countries on the procedures to revise and report on CPs, it is
more likely that the CPs will not be met. In turn, the likelihood is greater that the compact
activities will not be implemented successfully. Therefore, we are making the following
recommendation:

      Recommendation 1: We recommend that the Deputy Chief Executive Officer,
      by means of the current Implementation Working Group or a newly established
      working group, develop and issue, specific guidelines that describe how
      conditions precedent will be established, defined, revised, and reported.

Clearance Timeframes
Could Be Better
Communicated
    Summary: MCC’s timeframes for reviewing and approving compact country
    disbursement requests were not clear. MCC’s instructions, which accompanied a June
    2006 clearance matrix, indicated that MCC had 5 days to clear country requests. The
    instructions did not clearly identify which country requests the 5 days pertained to,
    however; as a result, there was confusion on the amount of time that MCC had to
    clear disbursement requests that included the CP schedule. According to MCC
    officials, the 5 days indicated in the instructions related only to procurement requests.
    MCC agreed that the 5-day requirement in the instructions did not clearly define which
    country request was being referenced. GAO’s Internal Control Standards state that
    information should be recorded and communicated to management and others within
    the entity who need such information in a form and within a timeframe that enables
    them to carry out their internal control and other responsibilities. The lack of specific
    guidance related to clearance timeframes results in unclear communication between
    MCC and the countries regarding when approvals for disbursement requests and
    other related requests are granted. This poor communication could negatively affect
    the compact’s activities.

The instructions that accompanied the June 2006 clearance matrix5 indicated that MCC
had 5 days to clear compact country requests, but they did not specifically identify which
requests the 5 days pertained to. Thus, one country believed that MCC had 5 days to
review and approve its disbursement requests. Accompanying the disbursement request
is the CP report, which shows the conditions that the country has met for that particular
quarter. This report is critical to MCC’s decision making process, because if a compact
country does not meet its CP requirements, MCC is not obligated to disburse funding for
compact activities.



5
 MCC’s clearance matrix identifies the departments or divisions that have the authority to clear
actions, issue approvals, and make no-objection decisions.


                                                                                              6
Because of unclear guidance, one country complained that MCC took 36 and 26 days to
clear the country’s second and third disbursement requests, respectively. Another
country believed that MCC had 5 days to respond to disbursement requests and
complained that MCC was not following its guidelines. This country had submitted a
disbursement request to MCC in December 2006 and, as of April 2007, MCC had not
cleared the request. The audit team later learned that a number of other issues had
delayed the approval of this country’s disbursement request. Nevertheless, based on
information obtained from MCC staff, the country believed that MCC had 5 days to
respond to its disbursement requests. Furthermore, because the instructions were
unclear, at least one MCC program official notified his review team that it had 10 days to
review and approve the disbursement request.

MCC’s instructions, which accompanied a June 2006 clearance matrix, indicated that
MCC had 5 days to clear country requests. The instructions did not clearly identify to
which country requests the 5 days pertained. MCC officials indicated that the 5 days
specified in the instructions related only to procurement requests and agreed that the
information did clearly define which country requests were subject to the 5-day rule.
MCC officials clarified that the disbursement agreement merely requires countries to
submit their request 20 days before the end of the quarter and does not indicate a
timeframe for MCC’s approval.

According to the GAO’s Internal Control Standards,6 information should be recorded and
communicated to management and others within the entity who need it in a form and
within a timeframe that enables them to carry out their internal control and other
responsibilities. The lack of specific guidance related to clearance timeframes has
resulted in unclear communication between MCC and the countries regarding when
disbursement requests and CP approvals are granted, and this could have a negative
impact on a country’s compact activities.

The lack of specific guidance related to clearance timeframes makes it difficult for both
MCC and the compact country’s operations to run effectively and efficiently. Timely
communication is essential to the success of the program. Accordingly, we are making
the following recommendation:

      Recommendation 2: We recommend that the Vice President, Department of
      Operations, issue guidance that clearly describes the clearance timeframe for
      approving country requests and related documents, such as the Conditions
      Precedent Report.

Additional Documentation Is Needed
to Justify Contracting Action
    Summary: Millennium Challenge Account–Georgia (MCA-Georgia) did not recompete
    an offer after rejecting all bids, as required by the MCC’s Procurement Guidelines, and
    awarded the contract on a single-source basis. Recompetition is required by the
    guidelines when bids are determined to be nonresponsive. Further, single-source
    selection is limited to five specific circumstances, and MCA-Georgia did not invoke
    any of the circumstances or request a waiver to justify the use of this procurement

6
    Standards for Internal Control in the Federal Government (GAO/AIMD-00-21.3.1), page 18.


                                                                                              7
    method. MCC procurement officials explained that recompetition was not a viable
    option because of limited market interest. MCA-Georgia and MCC operations officials
    stated that the urgency of the work warranted the single-source award. MCC’s
    Procurement Guidelines discourage the use of single-source selection, however,
    because it does not provide the benefits of competition in regard to quality and cost,
    lacks transparency in selection, and could encourage unacceptable practices.

During the review and testing of a CP that required MCA-Georgia to select and finalize
agreement(s) for construction works, the audit identified that MCA-Georgia did not
recompete an offer after rejecting all bids, as required by MCC’s Procurement
Guidelines. MCA-Georgia hired a consulting/engineering firm for nearly $8.4 million on a
single-source basis after the firm participated in a competition in which MCC rejected all
of the bidders, including the bid from the hired firm. Specifically, MCA-Georgia held a
competitive bidding process for the rehabilitation of four sections of a gas pipeline and
received two bids for the work. An evaluation panel recommended that both bids be
rejected. One firm was rejected because it was unqualified to perform the work; the other
firm was rejected because it did not provide a required document (a work plan). MCC
issued a no-objection ruling7 on MCA-Georgia’s conclusion.

MCC’s procurement guidelines identify recompetition as a remedy when all bids are
rejected for nonresponsiveness to the bid requirements. MCC procurement officials
explained that recompetition was not a viable option because of limited market interest.
They also explained that inviting a new bid from the other rejected firm was not
reasonable because it was not qualified to do the work.

MCA-Georgia then hired the firm on a single-source basis, although the firm initially had
been rejected because it did not provide a required work plan. MCA-Georgia concluded
that the firm had the capability to perform the work despite the lack of a work plan. The
hiring of the firm on a single-source basis was documented by a revision to the
Procurement Plan, which changed the procurement method from a competitive to single-
source selection. The change in the procurement method was approved by MCA-
Georgia’s Supervisory Board and received a no-objection ruling from MCC. MCC
officials and MCA-Georgia explained that it was necessary to hire the firm on an
expedited basis because of the priority of the rehabilitation work. In further discussions
with MCC, MCC stated that it was not a single-source selection because a competition
originally had been held. It characterized the contract as a negotiated contract, which
MCC stated is permitted per Section 2.63, Rejection of All Bids, of the Procurement
Guidelines. Section 2.63, cited by MCC to support its actions, addresses rejection of the
bids based on cost; it does not discuss rejection based on bids being nonresponsive
and, as such, is not applicable.8
7
  A no-objection ruling is a form of approval that means that MCC does not object to the proposed
action.
8
  Section 2.63 of the Procurement Guidelines states, “All bids shall not be rejected and new bids
invited on the same bidding and contract documents solely for the purpose of obtaining lower
prices. If the lowest evaluated responsive bid exceeds the Borrower’s [MCA-Georgia’s] pre-bid
cost estimates by a substantial margin, the Borrower [MCA-Georgia] shall investigate causes for
the excessive cost and consider requesting new bids as described in the previous paragraphs.
Alternatively, the Borrower [MCA-Georgia] may negotiate with the lowest evaluated bidder to try
to obtain a satisfactory contract through a reduction in the scope and/or a reallocation of risk and
responsibility which can be reflected in a reduction of the contract price. However, substantial
reduction in the scope or modification to the contract documents may require rebidding.”


                                                                                                  8
MCC’s procurement guidelines under Sections 2.61 through 2.64, Rejection of All Bids,
provide guidance as to the actions that can be taken after rejection of all bids and are
arranged based on the reason for the rejection. The reasons include effective
competition is lacking, bids are not substantially responsive, or the prices are
substantially higher than the budgeted amount. According to the evaluation report, MCA-
Georgia rejected the bids because they were not responsive to the bidding documents
(i.e., unqualified or did not provide a required document). Section 2.61 provides that “If
all bids are rejected, the Borrower [MCA-Georgia] shall review the causes justifying the
rejection . . . before inviting new bids.” Further, Section 2.62 provides that “If the
rejection is due to most or all of the bids being non-responsive, new bids may be invited
from the initially pre-qualified firms, or with the agreement of the Bank [MCC] from only
those that submitted bids in the first instance.” MCC did not solicit new bids from the
market, as noted, or request new bids from the two bidders.

The Procurement Guidelines under Section 3.6 (Direct Contracting or Single-Source
Selection) provide guidance as to the five circumstances under which single-source
contracting can take place:

   •	 An existing contract for goods or works, awarded in accordance with procedures
      acceptable to the Bank, may be extended for additional goods or works of a
      similar nature.
   •	 Standardization of equipment or spare parts, to be compatible with existing
      equipment, may justify additional purchases from the original supplier.
   •	 The required equipment is proprietary and obtainable only from one source.
   •	 The contractor responsible for a process design requires the purchase of critical
      items from a particular supplier as a condition of a performance guarantee.
   •	 Exceptional cases, such as in response to natural disasters.

MCA-Georgia did not develop a written justification citing (1) the reasons that a
recompetition was not feasible after rejecting all bids and (2) the necessity for a single-
source selection. As a result, its procurement action may be called into question. The
Procurement Guidelines encourage the use of competitive bidding and discourage the
use of single-source selection. Single-source selection does not provide the benefits of
competition in regard to quality and cost, lacks transparency in selection, and could
encourage unacceptable practices.

There are situations in which recompetition is not viable because of limited market
interest, and the urgency of the work could warrant a single-source award. Common
practice among agencies that work with developing nations (such as the United Nations
Development Programme and USAID) is to have a policy in place that provides for a
waiver in these situations. Therefore, we are making the following recommendation:

   Recommendation 3: We recommend that the Vice President, Department of
   Accountability, develop and issue a policy requiring written justifications for
   deviations from the guidelines when rejecting all bids and when using single-
   source selection.




                                                                                         9
EVALUATION OF
MANAGEMENT COMMENTS
The MCC provided written comments to our draft report that are included in their entirety
in Appendix II. In its response, the MCC agreed with the recommendations in the draft
report.

For Recommendation No. 1, the MCC’s Implementation Working Group has been
working to develop or expand upon written guidance on a range of implementation
issues, so that MCC has a transparent and consistent approach to such issues. As part
of this effort, MCC plans to develop additional guidance on conditions precedent, as
recommended in the audit report. One new document developed by the Working Group
is the Disbursement Response Letter. The letter, in additional to other information,
discusses MCC’s decision to defer or waive any conditions precedent, and requests
countersignature by the partner country so that there can be no confusion as to the MCC
decision. In addition, in July 2007 the Deputy Chief Executive Officer called for the
establishment of a team to review and revise MCC’s reporting requirements and
guidance for MCA Accountable Entities. This group has been established and will
review all required quarterly reports, including the CP report.            It will issue
recommendations to MCC’s Deputy CEO about any changes to reporting formats,
frequency and guidance in mid October 2007.

For Recommendation No. 2, the MCC agrees that the specific timeframe for response to
a country disbursement request is not as clear as it could be, and will issue guidance
clarifying this timeframe as recommended by December 31, 2007.

For Recommendation No. 3, the MCC concurred with the recommendation and indicated
that Part 7 of MCC’s Program Procurement Guidelines state that: “On a case by case
basis, MCC may grant waivers of certain provisions of the MCC Program Procurement
Guidelines as applicable to a particular procurement. Such waiver shall be in writing and
shall be effective only to the extent specifically set forth in such writing.” In response to
requests for further clarification on this issue, we are in the process of finalizing a
Guidance note specific to such waivers which will be completed by December 31, 2007.

While we appreciate MCC’s issuing guidance on the granting of such waivers as we
recommended, we would like to point out that MCC’s Program Procurement Guidelines
referred to were issued on May 22, 2007. Our fieldwork was conducted during the week
of March 12, 2007 and used the World Bank modified procurement guidelines in effect at
the time, which were dated April 7, 2006 and did not include a waiver provision.

Based upon MCC’s written comments, the OIG considers that a management decision
has been reached on the recommendations.




                                                                                          10
                                                                                    APPENDIX I 




SCOPE AND METHODOLOGY

Scope
The Millennium Challenge Corporation’s (MCC’s) Office of Inspector General audited
MCC’s conditions precedent (CPs) program in accordance with generally accepted
government auditing standards to determine whether MCC ensured that CPs were
successfully met and properly implemented before the compact entered into force and
before initial and subsequent disbursements.

The audit included tests and reviews of selected internal controls integral to the CP
process, including (1) appropriate reviews and approvals of relevant CP documentation;
(2) adequate verification of disbursements for compact administration and activities; (3)
documentation of key elements of the entry-into-force and initial/subsequent
disbursements requirements; and (4) controls over the compact procurement process.

The scope included MCC’s disbursements of $62.1 million to six countries9 for the period
from January 2004 to March 2007.

Audit fieldwork was conducted at MCC’s headquarters in Washington, DC, between
January 24, 2007, and April 13, 2007. Fieldwork conducted between March 4, 2007, and
March, 17, 2007, included site visits to Praia, Cape Verde; Tbilisi, Republic of Georgia;
Managua, Leon, and Chinandega, Republic of Nicaragua; and Tegucigalpa, Republic of
Honduras.

Methodology

In planning and conducting this audit, the audit team interviewed MCC management and
staff from MCC’s office of the general counsel, country directors, departments of
accountability and operations, procurement specialists, and program officers.

To assess internal controls associated with the CPs in compact-eligible countries, the
audit team interviewed Millennium Challenge Account (MCA) management and staff and
examined relevant documentation such as the country’s compacts, procurement
agreements and plans, governance agreements, monitoring and evaluation plans,
disbursement requests and agreements, CP status reports, and compact activity status
reports.

In addition, the audit team performed the following tasks:

    •	 Reviewed compact agreements and applicable documents relevant to the CP
       process to obtain an understanding of the process.
    •	 Identified and judgmentally selected six eligible compact countries that have
       entered into force and received initial or subsequent disbursements and used
       these countries as a basis for conducting this audit.

9
 Armenia: $3.6 million; Cape Verde: $7.5 million; Georgia: $25.5 million; Honduras: $7.1 million;
Madagascar: $14.5 million; Nicaragua: $3.9 million.


                                                                                               11
•	 Reviewed and selected procurement contracts and related documentation and
   files, including procurement plans, evaluation reports, and payments to service
   providers.
•	 Interviewed MCC and MCA contractors and service providers.




                                                                               12
                                                                                             APPENDIX II 




MANAGEMENT COMMENTS 



MEMORANDUM                                                          July 24, 2007


TO:            John Phee
               Assistant Inspector General for the Millennium Challenge Corporation

FROM:          Michael Ryan /s/
               Vice President for Administration and Finance

SUBJECT:       MCC Management Comments on Audit of the Millennium Challenge Corporation’s
               Management of its Conditions Precedent in its Compact Agreements

The MCC appreciates the opportunity to respond to the text and recommendations of this audit.
While the MCC would like to clarify two of the findings contained in the audit results, the MCC
concurs with all recommendations contained in the audit, and has already addressed one of these
recommendations.

   Recommendation 1: We recommend that the Deputy Chief Executive Officer, by means of the
   current Implementation Working Group or a newly established working group, develop and
   issue, specific guidelines that describe how conditions precedent will be established, defined,
   revised, and reported.

MCC concurs with this recommendation. The Implementation Working Group, which is chaired by
the Deputy Vice President of Operations, has been working to develop or expand upon written
guidance on a range of implementation issues, so that MCC has a transparent and consistent
approach to such issues. In the past few months, the MCC has issued clear and consistent Program
Procurement Guidelines, Financial Reporting Instructions, and other guidance to be followed by
MCC partner countries. As part of this effort, MCC plans to develop additional guidance on
conditions precedent, as recommended in your audit report.

One new document developed by the Working Group is the Disbursement Response Letter. This is
a standard letter that will be sent to all partner countries, beginning with the fourth quarter FY 2007
set of disbursement requests, in order to clearly notify the country of MCC’s decision regarding its
disbursement request and specify any adjustments to that request. It also discusses MCC’s decision
to defer or waive any conditions precedent, and requests countersignature by the partner country so
that there can be no confusion as to the MCC decision. A copy of the framework for this letter is
attached.


                                                                                                13

In addition, in July 2007 the Deputy Chief Executive Officer called for the establishment of a team to
review and revise MCC’s reporting requirements and guidance for MCA Accountable Entities. This
group has been established and will review all required quarterly reports, including the CP report. It
will issue recommendations to MCC’s Deputy CEO about any changes to reporting formats,
frequency and guidance in mid October 2007. MCC hopes to apply these new formats and guidance
to the Fiscal Year 2008 second quarter reporting cycle.

    Recommendation 2: We recommend that the Vice President, Department of Operations, issue
    guidance that clearly describes the clearance timeframe for approving country requests and
    related documents, such as the Conditions Precedent Report.

 MCC concurs with this recommendation. However, we would like to clarify the findings associated
 with it. As the report correctly states, the new MCC internal clearance matrix gives individual
 clearers five business days to clear a specific report, such as the conditions precedent report, that is
 submitted with a country’s disbursement request. However, the matrix does not require that the
 entire disbursement request be cleared and a response provided to the country within five days.
 Rather, MCC asks countries to submit their disbursement request 20 calendar days before the end of
 a quarter, with the goal of responding to the request by the first day of the following quarter, either
 with the first month disbursement tranche, or with specific concerns or adjustments as contained in
 the Disbursement Response Letter.

 MCC agrees that the specific timeframe for response to a country on its disbursement request is not
 as clear as it could be, and will issue guidance clarifying this timeframe as recommended by
 December 31, 2007. However, better guidance is only one part of ensuring adherence to timely
 submissions and review of disbursement requests and related reporting documentation. MCC’s
 experience is that the process of receiving, reviewing and approving reports and disbursement
 requests can take more than 20 days, due primarily to the varying capacity of countries to prepare
 quality reports. One goal of the reporting review team (mentioned above) is to understand the cause
 of delays in the preparation and review of reports, and make recommendations to improve the
 process. This will be an on-going effort on behalf of MCC that will not be fully resolved by having
 clearer timeline guidance.

    Recommendation 3: We recommend that the Vice President, Department of Accountability,
    develop and issue a policy requiring written justifications for deviations from the guidelines
    when rejecting all bids and when using single-source selection.

 MCC concurs with the recommendation. Part 7 of MCC’s Program Procurement Guidelines state
 that: "On a case by case basis, MCC may grant waivers of certain provisions of the MCC Program
 Procurement Guidelines as applicable to a particular procurement. Such waiver shall be in writing
 and shall be effective only to the extent specifically set forth in such writing." In response to
 requests for further clarification on this issue, we are in the process of finalizing a Guidance note
 specific to such waivers which will be completed by December 31, 2007.

 MCC does believe that the finding includes a misunderstanding of MCC’s program procurement
 process in the case described in the audit. In this particular case, a competitive process was run,



                                                                                                  14
resulting in only two bids, both of which were non-responsive. Market research demonstrated that a
new procurement was not likely to result in more bidders and one of the bidders was not technically
competent to perform the work. Section 2.62 of the Procurement Guidelines allows that when the
rejection of all bids is “…due to most or all of the bids being non-responsive, new bids may be
invited … with approval of MCC from only those that submitted bids in the first place.” In
accordance with section 2.62, a new bid was then requested from one of the two original bidders. In
sum, this was not a sole-source bid; rather, the bidder was selected based on an open competitive
tender, but the contract was negotiated. We recognize that in amending the Procurement Plan to
reflect this we documented the case incorrectly and that has caused some confusion. We also
recognize that the cancellation itself was not transparent and as a result we have added the following
to section 2.64 of the Procurement Guidelines: “Within two weeks of the rejection of all bids, the
MCA Entity shall post at dgMarket and the MCA Entity’s website … notification of the cancellation
of procurement. The notification shall identify the procurement and state briefly the reason for
canceling the procurement. The same information shall be sent to all bidders who have submitted
bids.” To further assist in clarification of such cases going forward, we intend to develop a guidance
paper on rejection of bids.




                                                                                               15
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

             Tel: (202) 712-1150 

            Fax: (202) 216-3047 

          www.usaid.gov/oig
